OIG Audit Report GR-60-06-004

Office of Community Oriented Policing Services Grants 
Awarded to the Town of Mountain Village, Colorado

Audit Report GR-60-06-004


February 2006
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Office of Community Oriented Policing Services (COPS) Technology Grant Nos. 2001-CK-WX-0030, 2002-CK-WX-0042, and 2003-CK-WX-0111 awarded by COPS to the Town of Mountain Village, Colorado (Mountain Village).  The purpose of the COPS Technology Grant Program is to provide funding for the continued development of technologies and automated systems that assist state, local, and tribal law enforcement agencies in preventing, responding to, and investigating crime.  This funding is intended to allow law enforcement agencies to purchase technologies that advance communications interoperability, information sharing, crime analysis, intelligence gathering, and crime prevention in their communities.
	
We tested Mountain Villages accounting records to determine if costs claimed under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the COPS Technology grants.  As of September 1, 2005, Mountain Village had been reimbursed $1,601,438 of the $1,644,245 total funds awarded for the three grants.

Our audit revealed that Mountain Village claimed and was reimbursed for unsupported and unallowable costs.  In addition, we found that Mountain Village:  (1) did not maintain separate accounting records for costs charged to each of the three grants; (2) received excess grant funding based on grant budgets that included the same equipment items previously budgeted for under a prior grant; and (3) did not submit accurate Financial Status Reports (FSRs) and did not submit all required FSRs timely.

Based on the deficiencies listed below, we identified dollar related findings totaling $241,624, or 15 percent of the $1,644,245 total grant funds awarded.1    Specifically, we found that Mountain Village:

did not maintain separate accounting records for each of the three grants as required by the COPS Technology Initiative Grant Program Manual;
requested and received reimbursement of $160,579 for costs charged to the grants that exceeded the approved grant budget amounts;
received excess grant funding totaling $63,000 based on grant budgets that included equipment items previously budgeted for under a prior grant, resulting in funds to better use of $42,807 and questioned costs of $20,193;
requested and received reimbursement of $1,068 for costs charged to the grants that were not allowable per the Office of Justice Programs (OJP) Financial Guide;
requested and received reimbursement of $13,737 for costs charged to the grants that were not allowable in accordance with the approved grant budgets;
requested and received reimbursement of $3,240 in unsupported costs charged to the grants for five radios that could not be physically verified; and
did not submit accurate FSRs and did not submit all required FSRs timely.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our objectives, scope, and methodology appear in Appendix I. 


  



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs.